<html>
<title> - SECURING THE BORDERS AND AMERICA'S POINTS OF ENTRY: WHAT REMAINS TO BE DONE?</title>
<body><pre>[Senate Hearing 111-294]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-294

SECURING THE BORDERS AND AMERICA'S POINTS OF ENTRY: WHAT REMAINS TO BE 
                                 DONE?

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION,
                      REFUGEES AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2009

                               __________

                          Serial No. J-111-25

                               __________

         Printed for the use of the Committee on the Judiciary






                  U.S. GOVERNMENT PRINTING OFFICE
55-033PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
RON WYDEN, Oregon
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

       Subcommittee on Immigration, Refugees and Border Security

                 CHARLES E. SCHUMER, New York, Chairman
PATRICK J. LEAHY, Vermont            JOHN CORNYN, Texas
DIANNE FEINSTEIN, California         CHARLES E. GRASSLEY, Iowa
RICHARD J. DURBIN, Illinois          JON KYL, Arizona
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
RON WYDEN, Oregon
               Stephanie Marty, Democratic Chief Counsel
              Matthew L. Johnson, Republican Chief Counsel

















                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     6

                               WITNESSES

Aguilar, David V., Chief, Office of Border Patrol, U.S. Customs 
  and Border Protection, Washington, D.C., and Winkowski, Thomas, 
  Assistant Commissioner, Office of Field Operations, U.S. 
  Customs and Border Protection, Washington, D.C.................     9
Foster, Chad, Mayor, Eagle Pass, Texas...........................    24
Hayworth, J.D., former U.S. Representative, 5th District of 
  Arizona, Phoenix, Arizona......................................    18
Massey, Douglas, Professor of Sociology and Public Affairs, 
  Princeton University, Princeton, New Jersey....................    25
Torres, John P., Deputy Assistant Secretary for Operations, U.S. 
  Immigration and Customs Enforcement, Washington, D.C...........     7
Vale, Samuel F., president, Starr-Camargo Bridge Company, Rio 
  Grande City, Texas.............................................    27
Wiles, Richard, Sheriff, El Paso County, Texas, El Paso, Texas...    21

                         QUESTIONS AND ANSWERS

Responses of Richard Wiles to questions submitted by Senator 
  Wyden..........................................................    35

                       SUBMISSIONS FOR THE RECORD

American-Arab Anti-Discrimination Committee, Kareem Shora, 
  National Executive Director, prepared by Penn State 
  University's Dickinson School of Law Center for Immigrants' 
  Rights, Report.................................................    36
Border Action Network/Accion Fronteriza, Tucson, Arizona, letter.    94
Citizens for Border Solutions, Bisbee, Arizona, letter...........    96
Foster, Chad, Mayor, Eagle Pass, Texas, statement................    98
Frontera de Cristo Bi-National Border Ministry, Reverend Mark 
  Adams, Coordinator, Douglas, Arizona, letter...................   101
Hayworth, J.D., former U.S. Representative, 5th District of 
  Arizona, Phoenix, Arizona, statement and attachment............   102
Massey, Douglas, Professor of Sociology and Public Affairs, 
  Princeton University, Princeton, New Jersey, statement and 
  attachment.....................................................   119
New York Times, May 15, 2009, article............................   131
No More Deaths.org, Tucson, Arizona, statement...................   134
Police Foundation, Washinton, D.C., statement....................   141
Torres, John P., Deputy Assistant Secretary for Operations, U.S. 
  Immigration and Customs Enforcement, Washington, D.C., 
  statement......................................................   149
U.S.-Mexico Border and Immigration Task Force, Washington, D.C.:
    Acccountability, Community Security and Infrastructure on the 
      U.S.-Mexico Border.........................................   164
    May 27, 2009, Letter.........................................   173
Vale, Samuel F., President, Starr-Camargo Bridge Company, Rio 
  Grande City, Texas, statement..................................   215
Wiles, Richard, Sheriff, El Paso County, Texas, El Paso, Texas, 
  statement and attachment.......................................   220
Winkowski, Thomas, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, Washington, 
  D.C., statement................................................   237

 
SECURING THE BORDERS AND AMERICA'S POINTS OF ENTRY: WHAT REMAINS TO BE 
                                 DONE?

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                                       U.S. Senate,
                               Subcommittee on Immigration,
                             Refugees, and Border Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:11 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Whitehouse, Specter, Cornyn, and 
Sessions.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Chairman Schumer. The hearing will come to order, and I 
apologize for being a bit late. Let us get right started.
    Less than 3 weeks ago, I presided over a hearing of this 
Subcommittee entitled ``Comprehensive Immigration Reform in 
2009: Can We Do It and How? '' After listening to the 
bipartisan testimony from the expert panelists and after 
hearing from my colleagues on both sides of the aisle during 
and after the hearing, I became cautiously optimistic that we 
can pass strong, fair, practical, and effective immigration 
reform this year. At the very least, I am convinced we owe the 
American people our very best effort to try and fix what we all 
acknowledge is a broken immigration system. To that end, the 
Immigration Subcommittee will convene a series of hearings over 
the next few months entitled ``Road to Immigration Reform in 
2009: Clearing the Hurdles.''
    During these hearings the Subcommittee will directly 
address the most challenging issues that the American people 
and the various stakeholders want and need this Congress to 
resolve as part of a fair and practical immigration solution. 
My many conversations with the American people have convinced 
me that the vast majority of Americans are pro-legal 
immigration and anti-illegal immigration. But I ask my 
colleagues not to take my word for it. Instead, consider the 
recent poll numbers that support this conclusion.
    According to the latest ABC News/Washington Post poll, 61 
percent of Americans would support a program giving illegal 
immigrants living in the United States the right to live here 
legally if they pay a fine and meet other requirements. This 
number has risen by 11 points since December of 2007. But the 
same poll also reported that 74 percent of Americans think that 
the United States is not doing enough to keep illegal 
immigrants from coming into this country. This number has risen 
by 7 points since 2007.
    The mandate of the American people cannot be any clearer. 
They will support better immigration laws if they can be 
convinced that their Government is serious about drastically 
reducing the number of illegal immigrants entering the United 
States. Accordingly, the purpose of today's hearing is to 
determine how to further secure our borders and ports of entry 
so that we will not be back 10 or 20 years from now discussing 
the same issues we are discussing today if we pass immigration 
reform later this year. But before we begin answering this 
question, we need to set the record straight. The American 
people need to know that because of our efforts in Congress, 
our border is more secure today, considerably more secure, than 
it was when we began debating immigration reform in 2005.
    Between 2005 and 2009, a vast amount of progress has been 
made on the southern border, the northern border, and ports of 
entry. This progress includes the following: According to real-
time data provided by the Department of Homeland Security, the 
number of people trying to illegally cross the southwest border 
has decreased by 27 percent compared to last year. This figure 
was compiled by the Border Patrol through border apprehension 
numbers. In addition, the Border Patrol tells us that at the 
end of fiscal year 2005, there were 11,106 Border Patrol 
agents. As of today, there are nearly 20,000 Border Patrol 
agents operating between the ports of entry. At the end of 
fiscal year 2005, only 241 miles of the southwest border were 
deemed to be under effective control by the U.S. Border Patrol. 
Today, the Border Patrol will tell us they are in effective 
control of 700 miles of the southwest border. And as of today, 
approximately 625 miles of border fence have been built, and 
the remaining 40 miles will soon be built after disputes with 
private property owners are resolved.
    Those are all new facts on the table as we begin to address 
immigration reform. And we will remove the chart briefly to 
make way for the Ranking Member of the Judiciary Committee, 
Senator Sessions. Thanks for coming, Jeff.
    On the enforcement side, ICE has implemented Border 
Enforcement Security Task Force teams that have made thousands 
of arrests of drug smugglers and of human smugglers. Finally, 
border personnel have implemented new technologies such as 
sensors, light towers, mobile night vision scopes, remote video 
surveillance systems, directional listening devices, data base 
systems, and unmanned aerial vehicles along the border. These 
new technology serve as force multipliers and allow Border 
Patrol to maintain control of larger segments of the border 
with fewer agents.
    All of these measures have contributed to what the New York 
Times reported on May 15, 2009, is ``an extraordinary decline 
in the number of Mexican immigrants going to the United 
States.'' And that was based on Mexican census data. The border 
experts in this hearing will show that the border is far more 
secure than it has ever been and, with our help, will be even 
more secure.
    It is important for the American people to know that all of 
these measures to secure our border were enacted with the 
approval of the vast majority of Congress and supported by the 
three of us here in a bipartisan way. Those of us who support 
immigration reform have shown our commitment to touch and 
serious border enforcement. You cannot have one without the 
other, in my opinion. But for years now, the opponents of 
immigration reform have continually promised that they will 
engage in conversation about immigration reform once Congress 
showed it was serious about securing the border. Our witnesses 
will confirm today that showing has clearly been made, and this 
chart--which is sort of blocked by the Chair, but it shows 
you--it is a very irascible chart.
    [Laughter.]
    Chairman Schumer. This is the border, southwest border, and 
as you can see, the vast majority--this is the Rio Grande River 
so we do not have a fence there. But from the western edge of 
the Rio Grande to the Pacific Ocean, almost the whole border 
fence has been built. There are a few holes because of property 
owner negotiations, and those are going to be filled quickly. 
And that is 700-some-odd miles.
    So it is time to end the divisive and unhelpful rhetoric 
which claims that nothing has been done to secure the border. 
It is time to re-engage in the long promised yet long delayed 
conversation about how to best reform our broken immigration 
system, including doing even more than we have done. That is 
not off the table at all. It is just that we have made good 
progress. Many people have said secure the border first, and 
that is what we are, in a good process, doing. So it is now 
time for balanced, fair, and tough immigration reform.
    As the line-up of witnesses for today's hearing proves, 
this Committee is determined to solicit diverse points of view 
in order to achieve the best solutions possible to the various 
policy questions we must resolve as part of our immigration 
reform effort. All of these issues we will need to address as 
part of comprehensive immigration reform, and they are 
incredibly complex and multifaceted. No one person, no one 
viewpoint, no one discipline, or one political party will have 
all the answers. I at least am, therefore, committed to hearing 
from all who are willing to answer tough questions about 
whether their proposed solutions for immigration reform are 
practical, effective, and consistent with our values as a 
Nation of due process, rule of law, and inclusiveness toward 
those who come here legally.
    I am confident that our distinguished panel today will move 
us closer toward finding the best solution for securing our 
borders and ports of entry and look forward with great interest 
to your testimony. I thank all of you for coming.
    Now I am going to call on my colleague, the Ranking Member 
of this Subcommittee, Senator Cornyn, who aside from his long 
Rio Grande stretch has a piece of the border fence in his 
State.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman. I want to 
thank all the witnesses for joining us here today, particularly 
three of my constituents from Texas. Thank you for coming to 
explain the complexities that confront us when it comes to 
border security and the challenges of balancing not only 
security with legitimate concerns about trade which are 
mutually beneficial to the United States and our trading 
partners. We have, I think, a great set of witnesses.
    I apologize to the Chairman. He knows this as well as I do. 
We have a Finance Committee walk-through on health care reform 
which has left the station and is barreling down the track at a 
high rate of speed, so I am going to be shuttling back and 
forth. But I will make it back periodically to try to exchange 
views.
    I want to thank you, Mr. Chairman, for making border 
security the focus of this hearing. As you noted, Texas has a 
1,200-mile common border with Mexico, and I have the 
opportunity to visit the border region often, and I know that 
border security is much on the minds of my constituents along 
the border. But they also want to make sure that we pay 
attention to the mutually beneficial aspects of our trading 
relationship with Mexico and Canada. My constituents of Texas 
view NAFTA as a net plus for many, many reasons, and it is 
important that we preserve the proper balance and do both--
encourage trade and also encourage and see that the Federal 
Government lives up to its responsibility when it comes to 
border security.
    Of course, this is a problem not just for the United States 
but also Mexico, too. Mexican authorities have told us that a 
vast majority of weapons they seize from criminals in Mexico 
are actually smuggled from the United States. I think it is no 
secret that weapons come from a variety of sources, including 
China, North Korea, and elsewhere, and some are stolen simply 
from stockpiles of the Mexican army by corrupt officials who 
move those into the hands of the cartels. But this is a problem 
not just with people coming north from Mexico. Border security 
is a problem about things going south, namely, weapons and bulk 
transfers of cash as part of massive money-laundering 
operations of the cartels and the like.
    I think it is important, too--and Mr. Torres I see is here 
from ICE--to recognize the administration's stated commitment--
at least, that is what I read in the newspaper--to expand the 
current program started in the last administration of 
identifying violent criminals in custody of our sheriffs and 
police in various county and municipal jail facilities. We know 
that the people that suffer most from violence perpetrated by 
these criminals is, in fact, the Hispanic community and 
minority community itself, because many times these criminals 
realize they can assault, steal, and otherwise cheat members of 
the minority community who are here without a visa and perhaps 
have impunity because they are afraid to complain. So this is a 
very positive development in my view, and I am glad to read of 
ICE's and the administration's commitment to continuing and 
expanding this program.
    I mentioned NAFTA. Forty percent of our bilateral trade 
crosses through the port of Laredo, the largest inland land 
port in the United States. More than 12,000 trucks and 1,200 
rail cars cross the border at the port of Laredo each day. I 
think it is also in the vein I alluded to earlier, talking 
about legitimate trade and visits. We had a little bit of a 
challenge early on, Mr. Chairman, trying to treat our guests 
who were complying with our immigration laws the same if they 
came from Canada as opposed to coming from Mexico. Early on, 
working with then-Secretary of Homeland Security Tom Ridge, we 
were able to secure an extension of the so-called Visa Laser 
Program, a border-crossing card where Mexican individuals who 
have those cards are properly screened. I mean they are not a 
threat to the United States. They basically want to come here 
and buy our goods and services and help stimulate our economy. 
I think our goal should be ultimately to treat all of our 
guests who comply with our visa and immigration laws exactly 
the same, and I look forward to the time when we will treat our 
visitors from Canada and Mexico exactly the same when they are 
complying with all of our laws.
    I appreciate the chart showing the construction of what the 
Border Patrol likes to call ``tactical infrastructure,'' other 
people call ``fencing,'' and other people call ``the wall.'' 
Depending on how close you get to the border, it becomes more 
and more controversial. But as I was telling Chief Aguilar, we 
have been able to work most notably in places like Hidalgo 
County with the county judge, Judge Salinas, and his team down 
there, Judge Cascos, in Cameron County and elsewhere to try to 
come up with win-win solutions. And, in fact, many private 
property owners have said they are worried about the increasing 
level of violence and intrusion across Mexico not from people 
who want to simply come to work, but violent criminals, people 
smuggling arms and smuggling drugs. And so they are concerned 
and are working in cooperation with our Border Patrol and law 
enforcement personnel as well.
    We need more Border Patrol agents. We have done a good job 
increasing that number, but rather than State and local 
officials having to carry that burden, I think we need more 
professional law enforcement officers, namely, Border Patrol 
and officials within DHS to help us provide a secure border. 
Then, of course, there is technology, which initially has 
proven to be somewhat disappointing, but which I hope can be 
improved to provide a virtual fence, not a wall, not 
necessarily a fence, not tactical infrastructure completely. We 
realize anything like that you build and if you do not have the 
people and the technology to work with it, it simply is not 
going to be a solution but, at least in the opinion of Border 
Patrol, is a tool that they can use in doing their job.
    Finally, let me just say I believe that the Federal 
Government's credibility is on the line. This to me was the 
reason why we were unsuccessful in dealing with immigration 
reform previously, because the American people simply did not 
believe us when we said we are serious about border security 
and had for so long done virtually nothing to deal with that 
problem. So they did not believe, and after the 1986 amnesty 
signed by Ronald Reagan, where the American people were told if 
you will accept an amnesty for 3 million people, we will really 
get serious about worksite enforcement and border security and 
the like. We saw the amnesty but no worksite enforcement, no 
border security, and so as the saying goes, ``Fool me once, 
shame on you. Fool me twice, shame on me.'' And the American 
people were not going to be fooled again.
    I do believe, as the Chairman has said, that we are off on 
a good start. I do think this is a subject as complex and as 
emotional as it can be. The order in which you talk about 
things is very important. When we talk about border security, 
tamper-proof identification, and workplace enforcement, I think 
that is the right order to talk about these things rather than 
start out talking about a pathway to citizenship for 20 million 
people at the beginning. The American people will not accept a 
pragmatic solution to the problems confronting folks who are 
here without their proper visa until we regain their 
confidence, and I think the only way we are going to regain 
their confidence is by showing them that we are serious about 
security measures, we are serious about the rule of law, and 
then I believe we can come up with a comprehensive solution 
that makes sense and the American people will embrace.
    Thank you, Mr. Chairman.
    Chairman Schumer. Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Mr. Chairman, it is great to be with you. 
This is an important hearing. I agree that progress has been 
made. I have been saying that for some time and not been using 
divisive rhetoric to say that nothing has been done. I have 
been saying that from the beginning I have believed that we can 
make the border a lawful place of entry into the United States, 
that we could eliminate lawlessness. We are making some good 
progress. The question is: Will we continue it as the number of 
illegal entrants go down and we have got more people per 
illegal entrant to catch the ones that are coming illegally? So 
it becomes a spiral in the right direction instead of a spiral 
in the wrong direction.
    I see some good things happening. I see some things that 
are troubling, and I look forward to the hearing. Thank you for 
having it.
    Chairman Schumer. Thank you, Mr. Chairman--Mr. Ranking 
Member.
    Senator Sessions. We can dream.
    [Laughter.]
    Chairman Schumer. You are a bit aways.
    Okay. Moving right along here, I would like to introduce 
our panel. First, John P. Torres is the Deputy Assistant 
Secretary for Operations for ICE. From November 2008 to May 
2009, he served as the Acting Assistant Secretary of Homeland 
Security for ICE. He has now been succeeded by John Morton, 
with whom I have had pleasant conversations and look forward to 
having him appear before this Committee once he gets up and 
running.
    In his present capacity, Mr. Torres is responsible for 
coordinating the efforts of the Federal Protective Service, 
National Firearms and Tactical Training Unit, National 
Incidence Response Unit, et cetera, et cetera.
    David Aguilar is the Chief of the United States Border 
Patrol, a position he assumed on July 1, 2004. As the Nation's 
highest ranking Border Patrol agent, Chief Aguilar addresses 
the enforcement efforts of more than 20,000 Border Patrol 
agents nationwide. Chief Aguilar brings to the job the 
knowledge and expertise gained from 30 years of service on the 
Border Patrol. We thank you for your service.
    And Thomas S. Winkowski is the Assistant Commissioner of 
the Office of Field Operations, the largest and most complex 
organization in the U.S. Customs and Border Protection. He 
oversees an operating budget of $3.2 billion, directs the 
activities of nearly 27,000 employees, and is responsible for 
operations at 20 major field offices, 327 ports of entry, 58 
Operational Container Security Initiative ports, and 15 
preclearance stations in Canada, Ireland, and the Caribbean.
    We welcome all three of you gentlemen. Your entire 
statements will be read in the record. We are asking you to 
keep yours to 5 minutes here. And I, like Senator Cornyn, the 
Finance Committee is discussing some very important parts of 
health care, including hospital funds for New York. So one of 
my colleagues may be coming here and may have to briefly sit in 
for me, but it does not express any lack of interest or the 
fact that I am familiar with the statements you have submitted.
    Mr. Torres.

  STATEMENT OF JOHN P. TORRES, DEPUTY ASSISTANT SECRETARY FOR 
     OPERATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, 
                         WASHINGTON, DC

    Mr. Torres. Good morning, Chairman Schumer, Ranking Member 
Cornyn, and Senator Sessions. On behalf of Secretary Napolitano 
and Assistant Secretary John Morton----
    Chairman Schumer. Could you just pull the microphone a 
little closer?
    Mr. Torres. Sure.
    Chairman Schumer. Thank you, Mr. Torres.
    Mr. Torres. I thank you for the opportunity to discuss 
ICE's efforts and our role in securing the border through the 
investigation of our Nation's immigration and customs laws.
    As the primary investigative agency in the Department of 
Homeland Security, ICE protects our national security and 
upholds public safety by targeting transnationl criminal 
networks and terrorist organizations that might exploit 
potential vulnerabilities at the borders. Recognizing that 
partnerships are essential, ICE works closely with its domestic 
and foreign partners at the Federal, State, local, and tribal 
levels to create a seamless web of border enforcement and a 
united front to disrupt and dismantle transnational criminal 
organizations.
    While immigration enforcement is a key component of ICE's 
mission, we cannot and do not establish enforcement priorities 
in a stovepipe fashion. Instead, we target the organizations 
that exploit our legitimate trade, travel, and financial 
systems with all the enforcement authorities to ensure that 
cross-border crime is attacked from every possible angle. 
Indeed, the recent escalation of violence by the drug cartels 
and other criminal organizations just over our border with 
Mexico demonstrates this point in very stark terms. As 
Secretary Napolitano has recently testified, the violence in 
Mexico is not only an international threat; it is a homeland 
security issue in which all Americans have a stake. The cartels 
that the Mexican authorities are battling are the same criminal 
organizations that put drugs on our streets and use violence as 
a tool of their trade. Illegal money, drugs, and weapons flow 
both ways across the border and inextricably link the U.S. and 
Mexico in our efforts to combat the drug cartels. Our two 
countries share a nearly 2,000-mile border, billions of dollars 
in trade, a commitment to democracy, and the need to prevail 
against the transnational threats of organized crime. We, as a 
DHS family, are not in a wait-and-see mode. The violence along 
our southwest border requires a comprehensive and bilateral 
effort.
    Secretary Napolitano issued an Immigration and Border 
Security Action Directive in January of 2009 to focus on this 
violence and using the Department's wide-ranging authorities. 
Additionally, in March of this year, DHS announced several 
southwest border initiatives designed to crack down on the 
Mexican drug cartels through enhanced border security. The plan 
calls for additional personnel, increased intelligence 
capability, and better coordination with Federal, State, local, 
and Mexican law enforcement authorities to target illegal guns, 
drugs, and cash.
    In furthering that effort, we partner between the Federal, 
State, local, and tribal law enforcement in the border region, 
which is essential to securing our Nation against the threat of 
cartel violence. Law enforcement agencies at all levels of 
government have significant roles to play both in addressing 
the current border violence and in preparing for scenarios 
where violence in Mexico could further impact the United 
States. Law enforcement agencies at the State, local, and 
tribal level have long fought border violence and have deep 
operational knowledge of the border region. Confronting a 
multifaceted threat like border violence means that Federal 
agencies must constantly collaborate and coordinate and work 
together with our State and local partners by sharing 
information and resources.
    With that in mind, ICE established the Border Enforcement 
Security Task Forces back in 2006. They are led by ICE, but 
they work with a number of partners at the Federal, State, and 
local level, to include our partners here at CBP that are at 
the table. We work with DEA. FBI, ATF, U.S. Attorney's Offices, 
and local law enforcement agencies. Across the southwest 
border, the Mexican Government is committed to participate in 
the BEST task forces. In fact, five of those now have actual 
representation from the Mexican Government.
    The BEST model has been successful. With the help of our 
partners, we have been able to crack down on arms trafficking, 
human smuggling, bulk cash smuggling, narcotics smuggling, et 
cetera. As such, I would like to share with you a few of our 
successes: the discovery and repatriation by the El Paso BEST 
of one of Mexico's top ten fugitives; the arrest by the Laredo 
BEST of a weapons trafficker supplying cartels with assault 
rifles and a number of weapons used to murder a Mexican police 
officer by the name of Navarro Rincon and others; the arrest by 
the Laredo BEST of a member of the Mexican Mafia gang in 
possession of approximately 897 pounds of smuggled marijuana 
after he attempted to run over a Texas DPS, Department of 
Public Safety, officer; and also the arrest by our Los Angeles 
Seaport BEST of an arms trafficker and the seizure of 38 
military-style weapons.
    As such, due to this success, DHS and ICE have committed to 
adding more resources to the BEST. We have recently doubled the 
number of special agents assigned from 95 to 190, which greatly 
expands our ability to work with local law enforcement.
    We have also committed to working more closely with Mexican 
authorities. Assisting Mexico in our battle against drug 
violence and immigration violence requires strong coordination 
with Mexican law enforcement to ensure that Mexico and the U.S. 
are operating together in combating this transnational threat. 
ICE engages Mexican authorities on a number of levels in our 
joint efforts to combat border violence.
    We have a Border Liaison Officer Program, for example, 
where we designate a number of agents across the border to work 
closely with our Mexican partners and establish regular 
meetings and contacts. We recently quadrupled the number of 
those border liaison officers on the southwest border.
    We have also strengthened our coordination with the 
Government of Mexico by increasing our attache personnel in 
Mexico by sending additional special agents to Mexico City, 
Tijuana, Hermosillo, Ciudad Juarez, and Monterrey. Through our 
attache in Mexico City and associated sub-offices in Mexico, 
ICE assists in the efforts against transnational drug 
trafficking, weapons smuggling, bulk cash smuggling, and money-
laundering syndicates in Mexico. Our attache personnel work on 
a daily basis with Mexican authorities to combat those 
transnational threats, and we have added additional officers, 
again, to all of those offices.
    We have also focused recently on the illegal weapons and 
bulk cash smuggling into Mexico. A larger number of weapons 
recovered in Mexico's drug war are smuggled illegally into 
Mexico from the United States. Clearly, stopping this flow is 
one of our top priorities.
    In June of 2008, ICE, CBP, and other Federal and State 
partners met down in Cuernavaca, Mexico, with our Mexican 
partners and agreed to add more resources in combination with 
ATF to focus on southbound weapons smuggling and work with the 
units down in Mexico.
    In summary, I do want to add that my complete statement 
also focuses on our efforts on immigration enforcement and 
record levels of that over the past couple of years, and we are 
committed to working with this Subcommittee to address those 
challenges, and we are happy to answer any of your questions.
    Thank you.
    [The prepared statement of Mr. Torres appears as a 
submission for the record.]
    Chairman Schumer. Thank you very much, Mr. Torres.
    Chief Aguilar.

STATEMENT OF DAVID V. AGUILAR, CHIEF, OFFICE OF BORDER PATROL, 
U.S. CUSTOMS AND BORDER PROTECTION, WASHINGTON, DC, AND THOMAS 
WINKOWSKI, ASSISTANT COMMISSIONER, OFFICE OF FIELD OPERATIONS, 
       U.S. CUSTOMS AND BORDER PROTECTION, WASHINGTON, DC

    Mr. Aguilar. Thank you, sir, and good morning.
    Chairman Schumer, Ranking Member Cornyn, Senator Sessions, 
Senator Specter, it is an honor and a privilege to appear 
before you today. I am honored to be here with Assistant 
Commissioner Tom Winkowski, my good partner over at CBP, and 
another good partner, Deputy Assistant Secretary John Torres, 
who jointly we are very interested in what happens on the 
border and I think jointly we will give you a good picture of 
the successes that we have had and advances that we have had on 
the border.
    Senators, next week the Border Patrol will celebrate 85 
years of service, having been officially established by an act 
of Congress in 1924 on May 28th. Over the years that we have 
served in the Bureau of Immigration to the Departments of Labor 
and Justice and now within Customs and Border Protection in the 
Department of Homeland Security, the Border Patrol has served 
this Nation with honor and integrity. From a few hundred patrol 
inspectors, mounted inspectors, we have grown now to 18,945 
officers as we speak today. They are, of course, deployed 
throughout the norther border, southern border, and our 
maritime and coastal borders.
    The Border Patrol is charged, as you know, with the 
protection of the border between the ports of entry. We are 
guided in all of our efforts by a solid strategy, and I have to 
point out, Senators, that this is an all-threats strategy that 
takes into account not only illegal immigration, which is a big 
vulnerability and a poses a big threat to our borders, but it 
also takes into account narcotics, criminals, criminal aliens, 
and criminal organizations that sometimes believe that they can 
use our borders within impunity.
    With the proper mix of manpower, infrastructure, and 
technology, the Border Patrol is dedicated to achieving the 
goal of operational control. This comprehensive approach is 
critical as no one leg, no one component of our strategy can 
accomplish the mission alone. We are far better off now than we 
have ever been with respect to border security. I am confident 
that with our increased staffing, more tactical infrastructure, 
and integrated technology improvements we have established a 
solid anchor for gaining, maintaining, and expanding 
operational control of our borders.
    There is a transformation occurring on our borders. We are 
transforming the borders of the United States because of the 
application of our strategy and the tactical infrastructure of 
the personnel and the technology that is being added. The 
border regions, both northern and southern, have undergone 
drastic changes and transitions in the past 5 years. Clearly, 
the most prominent is the establishment of our tactical 
infrastructure and the stand- up of varying styles of fencing. 
With the support from Congress, we have now over 626 miles of 
fencing in place out of our total goal of 661 miles. We will 
accomplish that goal.
    This was not an arbitrary number that we reached. Our 
sector chief patrol agents are the field commanders for 
specific geographic areas around the country, and with the 
assistance of their staff, arrived at an achievable, 
sustainable, and economically beneficial need for tactical 
infrastructure that was designed by them. We continuously 
assess our progress and how we can improve it. But, clearly, 
what is now in place has absolutely provided a great benefit to 
our mission.
    In the Yuma Sector, for example, our apprehension rate has 
plummeted from over 138,000 apprehensions that we made in 2005 
to just over 8,000 in 2008, and that number continues to drop. 
Nationwide, we have seen a decrease from about 1.2 million 
apprehensions in 2005 to 723,000 in 2008. And to date, we have 
a 27-percent drop as compared to the same time period last 
year.
    Along the northern border, the most noticeable change has 
clearly been the increase in staffing. As I just mentioned, the 
Border Patrol has now grown to over 18,000 agents, of which 
there were over 1,700 agents assigned to the northern border. 
With increased staffing we have been able to expand our 
community outreach, conduct further operations, and develop 
deeper partnerships with the law enforcement community as a 
whole. The finest example of coordinate efforts is with our 
Canadian counterparts through the Integrated Border Enforcement 
(IBET) Teams.
    In today's 21st century world, the Border Patrol has sought 
to further utilize technology to assist in border security. A 
critical component of our strategy is technology and being able 
to effectively utilize the benefits that can be gained through 
those enhancements. With the development and adoption of new 
technologies such as infrared cameras, remote video 
surveillance, and unattended ground sensors, we have been 
further aided in our mission. With the advent of SBInet and the 
P-28 proof of concept, the Border Patrol took an enormous leap 
forward in our mission and mission capability.
    The border solution is not a simple solution. When it comes 
to border security and our agents, they are dedicated to 
performing our mission. We will continue to explore new 
technologies and reassess our operational needs to 
appropriately address the vulnerability gaps.
    The border is a dynamic environment, and we strive to meet 
the demands of today as well as the challenges of tomorrow.
    Thank you for the opportunity to describe our plans for 
border security and to highlight some of our progress to date. 
I look forward to any questions that you might have of us, sir.
    [The prepared statement of Messrs. Aguilar and Winkowski 
appears as a submission for the record.]
    Chairman Schumer. Thank you, Chief, and I want to thank 
both of you for your testimony. Secretary Winkowski is here to 
answer questions, but as I understand it, Chief Aguilar's 
testimony subsumes yours. So we are going to go to questions.
    The first question I have is for all three witnesses, and I 
just want to set the record straight for the American people. 
First of all, I am going to ask you directly whether you agree 
or disagree with the following statement: ``The measures we 
have taken since 2005 to secure the border have been successful 
in significantly lowering the number of illegal immigrants 
seeking to unlawfully cross the border, including a 27-percent 
reduction this year.''
    Chief Aguilar, do you agree with that?
    Mr. Aguilar. Absolutely, sir.
    Chairman Schumer. Commissioner Winkowski.
    Mr. Winkowski. Yes.
    Chairman Schumer. Assistant Secretary Torres.
    Mr. Torres. Yes, sir.
    Chairman Schumer. Okay. Next question: Do you agree or 
disagree with the following statement: ``The U.S.-Mexico border 
is exponentially more secure today than it was in 2005 when we 
began discussing comprehensive immigration reform.''
    Chief Aguilar.
    Mr. Aguilar. That is correct, sir. It is.
    Chairman Schumer. Commissioner Winkowski.
    Mr. Winkowski. Yes, I agree.
    Chairman Schumer. Assistant Secretary Torres
    Mr. Torres. Yes, sir, it is.
    Chairman Schumer. Okay. And I would note some of you came 
to office in the Obama administration and some in the Bush 
administration. This is not a partisan issue of any sort.
    Now I am going to read to you the main border provisions 
that were part of the McCain-Kennedy bill from 2006, which I 
think Senator Cornyn directly diagnosed it. The reason the bill 
failed is the American people did not have faith that there 
would not be a future wave of illegal immigrants if we passed 
that bill.
    First, here is what it was supposed to do: Develop a 
national strategy for border security that describes actions to 
achieve operational control over all borders and ports of 
entry; double the number of Border Patrol agents and increase 
the number of ICE agents by 200; establish initiatives with 
Canada, Mexico, and Central American countries to protect the 
border; deploy border technologies designed to serve as ``force 
multipliers'' to achieve greater operational control of the 
border; complete border fencing in the Yuma and Tucson, 
Arizona, Sectors; increase the number of helicopters and boats 
for us by the Border Patrol.
    Have all of these metrics been met? Chief Aguilar.
    Mr. Aguilar. Yes, sir.
    Chairman Schumer. Do you agree, Secretary Torres?
    Mr. Torres. Yes, sir.
    Chairman Schumer. And Commissioner Winkowski?
    Mr. Winkowski. Yes.
    Chairman Schumer. Okay. So these are not law. I mean, they 
may be part of other laws, but this is what was laid out in the 
McCain-Kennedy bill, and it seems we have gone a good way for 
achieving it.
    OK, next question: There are people, blogs, cable 
television, radio, who raise the fear factor with the American 
people when they state that our southwest border will not be 
secure unless we build a wall across the entire length of the 
southwest border, that is, a 2,000-mile wall. So, in effect, 
what they are saying is you need a wall on the Rio Grande parts 
of the border, not just the landlocked parts of the border, 
where, as I said, except for 40 miles, that has been done, 700 
miles of fence.
    So do any of you agree that we need to build a fence on the 
rest of the border, the Rio Grande part of the border, to be 
secure, that that is essential for security?
    Chief Aguilar.
    Mr. Aguilar. No, sir. The fence that has been designed and 
is in the progress of being built, the 661 miles, is what has 
been defined by the experts on the ground, the field 
commanders, as what is needed along with the continuing 
maturation of our personnel and the continued augmentation of 
technology that is on its way.
    Chairman Schumer. Has smuggling or illegal crossings across 
the Rio Grande decreases at a rate consistent with the rate we 
have heard overall, 27 percent?
    Mr. Aguilar. Absolutely, and in some cases, it is even 
higher, sir.
    Chairman Schumer. Even higher.
    Mr. Aguilar. Yes, sir.
    Chairman Schumer. So we are doing pretty well by the river. 
We have the natural barrier, the river, I guess.
    Mr. Aguilar. Absolutely.
    Chairman Schumer. Okay. How about you, Secretary Torres? 
What do you think of this idea of building--that we need to 
build a fence along the 1,200 or so miles of the Rio Grande 
border?
    Mr. Torres. Well, I agree with our expert here, Chief 
Aguilar, and I see that in addition to the efforts of the 
Border Patrol some of the enforcement initiatives that we have 
undertaken in the interior of the country have also contributed 
to the decreases and the people attempting to be smuggled into 
the United States.
    Chairman Schumer. We are going to have hearings on that, 
too. Believe me, I feel that is the most important thing we can 
do. If you prevent employers from hiring illegal immigrants, 
that will cut off the flow as effectively as anything, and we 
are going to explore that.
    Commissioner.
    Mr. Winkowski. Mr. Chairman, I agree with Chief Aguilar. I 
do think there is one thing we have to keep in mind that, as we 
close off between the ports of entry, the impact at the ports 
of entry. I think that is something that we need to keep an eye 
on.
    Chairman Schumer. And give me your analysis of how we are 
doing.
    Mr. Winkowski. Well, as we prevent people from coming 
between the ports of entry with our tactical infrastructure and 
our technology, they will seek other ways of coming into the 
country, such as through our ports of entry. And we have got to 
be prepared at our ports of entry--which we are--things such as 
the stimulus package that was recently passed, the $720 million 
to really work on our infrastructure, which is so sorely 
needed; the plus-up in staffing that we had; the upcoming 
implementation of the Western Hemisphere Travel Initiative with 
machine-readable documents.
    Chairman Schumer. Have any of you noticed a change in the 
commitment to building the existing fence and following the 
law, both virtual and concrete? In the new administration, is 
there any diminution of enthusiasm for that, monies for that, 
et cetera?
    Mr. Aguilar. No, sir.
    Chairman Schumer. Chief, you have served under both 
administrations.
    Mr. Aguilar. Absolutely. No, sir. There is a continued----
    Chairman Schumer. Could you please pull your microphone 
forward?
    Mr. Aguilar. I apologize. No. Not only is there a continued 
interest, but there is also a continued testing of our thinking 
on the requirements. Once we have briefed, once we have 
identified the rationale, everybody is in agreement that we 
will continue to build the fence, we will continue to fund the 
technology requirements that we have identified.
    Chairman Schumer. Great. Okay. I want to thank our 
witnesses. I am going to turn over the chair to Senator Specter 
for a brief while, while I try to defend New York hospitals at 
the Finance Committee. And I will be back. I want to thank the 
witnesses for their testimony.
    I have complete confidence in handing the chair over to 
Senator Specter. He has far more experience than I do chairing 
these committees, but this will be the first time he is doing 
it from this side of the podium. Senator Specter.
    Senator Specter [presiding]. Thank you very much, Mr. 
Chairman. I am very comfortable in the center.
    [Laughter.]
    Senator Specter. Senator Sessions.
    Senator Sessions. Senator Specter, I am glad to be with 
you, Mr. Chairman.
    Well, my good friend Chuck Schumer forgot a little of the 
history on the fence and how hard we had to battle and how hard 
I had to force votes, and then we would authorize the fence, 
and then the appropriations bill would have zero money in it 
for the fence, and the American people had to shut down the 
switchboards, and we finally got the message up here. So I do 
not think the politicians have in any way distinguished 
themselves, ourselves, in this matter.
    But I do agree that progress is being made, and I have 
always believed that was possible. The numbers are at least 
as--well, I will say it this way: Based on what we have done 
and what we could have done in addition and did not do, I guess 
we are making some pretty good progress on reducing the flow of 
immigration here. But about 3 years ago, we were arresting 1.1 
million and now it is about 700,000 some, which is still a lot. 
I mean, that is not a lawful border when you are arresting 
700,000 annually, and we are not there yet.
    Mr. Aguilar, with regard to the barriers, just for 
clarification, when we wrote this amendment, of course, we did 
not offer an amendment that would build a wall across the 
entire border. Somebody may call in to a talk show and say 
that, but that was not what those of us in Congress proposed. 
We proposed 700 miles.
    Now, what are vehicle barriers? And how are they different 
from fencing?
    Mr. Aguilar. Vehicle barriers are basically designed to 
keep vehicles, anything that has a carrying capacity, across 
our borders. They are very specific and very unique to 
geographical areas that lend themselves to vehicles or any kind 
of carrying capacity coming across. That is a type of defense 
that we need to have in those specific areas.
    Senator Sessions. But a pedestrian could get across that 
barrier.
    Mr. Aguilar. A pedestrian can get across that barrier, yes, 
sir. But by design and by implementation, they are placed where 
pedestrians are not as likely--there is always the possibility, 
but not as likely to try and penetrate that border on foot.
    Senator Sessions. Well, the Chairman says we have got 700 
miles of fencing. How many miles of fencing and how many miles 
of vehicle barriers do you have today?
    Mr. Aguilar. As we speak today, we have 626 miles that we 
have built. We will be accomplishing 661. The total number of 
miles, combination, that we will have in place at 661 will be 
116 miles total in California, 115 in Texas, 115 in New Mexico, 
and 313 in Arizona.
    Senator Sessions. How many of those are vehicle barriers 
and how many are fencing?
    Mr. Aguilar. I would have to get you those numbers, sir. I 
have them here. I will dig them up right now.
    Senator Sessions. Well, I think we just need to get that 
straight because the legislation called for fencing, which is 
better.
    Let us talk a little bit about the El Paso division. My 
staff has talked with some of the CBP folks there, and the 
fence has been built there. Would you agree--I guess, Mr. 
Aguilar, I would ask you--that El Paso has seen a dramatic 
reduction in apprehensions there from 122,000 in 2006 to 30,000 
in 2008?
    Mr. Aguilar. Yes, sir. Those numbers are correct.
    Senator Sessions. And I understand that crime in El Paso 
has dropped in general. Is that correct?
    Mr. Aguilar. That is correct. It has dropped, and El Paso, 
I believe, still remains as the third safest large city in the 
Nation.
    Senator Sessions. I think that is a remarkable achievement, 
Mr. Chairman. Part of securing the border there with the fence 
and increased Border Patrol officers and sophisticated use of 
technology, you have drawn that illegal entry way down and the 
crime rate has gone down, and El Paso is one of the third 
safest cities in America, according to the numbers I had.
    But you still, I understand, are averaging 48 apprehensions 
a day, but that is a lot better than 300 a couple of years ago.
    Mr. Aguilar. Yes, sir.
    Senator Sessions. That is the basic trend you would see 
there, Mr. Aguilar?
    Mr. Aguilar. Yes, sir. And El Paso, just as a point of 
clarification, takes in not only El Paso proper and the 
surrounding areas, but also takes into account basically the 
entire State of New Mexico border also.
    Senator Sessions. Mr. Torres, isn't one way the thing that 
we can help our friends in Mexico--and I am really impressed 
with our efforts to step up their national security, to crack 
down on the organized gangs that even threaten the independence 
of the nation, and I think we should help. Isn't one good way 
we can help is to make a priority to prosecute the criminal 
gangs in our cities that are connected to these cartels in 
Mexico and when you do so, you draw up the sources of their 
money that flow back to these cartels in Mexico and give them 
the power that enables them to threaten the Government of 
Mexico?
    Mr. Torres. Yes, sir, Senator. In fact, over the past 
couple of years, we have implemented a couple of programs--two 
programs just targeted specifically at what you are talking 
about. One is our Operation Community Shield, which has 
resulted in over 11,000 gang members that we have arrested 
since 2005, a number of those of which we have prosecuted. But 
then we also have what is called Operation Repeat Offender that 
we focused along the southwest border, where we take people who 
have committed crimes that we have identified and screened in 
the States' prisons and jails along the southwest border. 
Actually, we do it nationwide, but a lot of the focus is on the 
southwest border. We take those people we identify who have 
committed a crime and who have also previously been deported, 
and we work with the U.S. Attorney's Office to prosecute them 
federally for re-entry after deportation statute. And, 
historically, they have been receiving close to--or being 
sentenced close to 3 to 5 years in prison. So, in effect, it 
takes them, just as you said, out of that theater of violence 
along the southwest border, so we are not just deporting them 
again so they can try to come back in and be encountered by a 
Border Patrol agent or someone at the port of entry.
    Senator Sessions. Yes, I think that is a real way to help 
them, because some of them move back and forth, and some just 
ship money back home to strengthen those cartels.
    I would just say with regard to the new administration, a 
number of things are being continued that are good, like 
Operation Streamline, and I would like to talk a little more 
about that. My time is up, but the President has denied 
requests for continuing----
    Senator Specter. Senator Sessions, if you want a little 
more time, go ahead.
    Senator Sessions. All right. Thank you. He has denied a 
request for additional National Guard troops there. The policy 
that seems to be working in the workplace, Mr. Torres, could be 
good if we primarily target the employers who knowingly 
participate in this. But also, when you do not remove those who 
have proven to be using false IDs and are here illegally, we 
are back to a catch-and-release policy. I think that sends an 
unwise message, and I do think that some of the actions have 
raised real questions in my mind about the commitment of the 
Department to State and local participation in this effort.
    And, finally, just to wrap up, on the question of Operation 
Streamline, I am seeing good numbers. This is where in certain 
sectors when the Border Patrol officers apprehend someone, they 
are actually prosecuted, maybe a week or two, whatever, in 
jail. They get a misdemeanor conviction if it is their first 
offense, which is different from just taking them right back to 
the border and sending them home, because they come back the 
next day.
    What I have seen in Del Rio, Mr. Aguilar, is that in 2005 
there were 68,000 apprehensions there. In 2008, after 
Streamline has been in place where they are routinely 
prosecuted, the apprehensions are 20,000, a 70-percent 
decrease. In Yuma, pre-Streamline there were 117,000 
apprehensions. After that, it dropped to 8,000, a 93-percent 
decrease. In Laredo, there was 56,000 in 2007, and 2008 is a 
partial. Streamline, it dropped to 46,000. And in Tucson, in 
2007 apprehensions were 379,000, and the numbers have dropped 
to 126--well, I do not have the full year on that, so that is 
2009 to date, 126,000, but it looks like a good reduction 
there.
    So do you believe that is having an impact on the decline 
of entries presumably?
    Mr. Aguilar. Absolutely. Where we have implemented 
Operation Streamline or Streamline-type operations as a part of 
our comprehensive approach, it is having a tremendous impact.
    I would like to just point out that the fundamentals of a 
border enforcement model are the ability of the Border Patrol 
to be able to detect, deter, identify, classify, and resolve 
any kind of cross-border illegal entry. The fence or the 
tactical infrastructure that we referred to does a lot of the 
deterrence. In addition to that, anything that gets past us, 
there has to be a consequence to it, of which Operation 
Streamline is part of our consequence package, if you will, 
that we bring to bear against anything that does get through 
even our enforcement model.
    Senator Sessions. Thank you.
    Thank you for being very kind to me, Mr. Chairman.
    Senator Specter. Thank you, Senator Sessions.
    Picking up on a thread on Senator Sessions' comments with 
respect to the drug problem--and the smuggling of arms is a big 
factor--do the Border Patrol improvements have any impact on 
the smuggling of weapons? That is obviously something which is 
given a lot of fire power, improve the capacity of the drug 
dealers to function, imperil the Mexican Government. Mr. 
Winkowski, we have not given you a speaking part yet. Would you 
care to respond to that?
    Mr. Winkowski. Yes, thank you, Senator. As you know, with 
part of our Southwest Border Initiative, we are conducting an 
assortment of outbound operations looking for weapons as well 
as bulk currency going south into Mexico. I can tell you we 
have had a lot of success from the standpoint of bulk currency 
seizing since March of this year, over $13 million going south.
    From the standpoint of weapons going south, we have had 
some seizures, but not military grade type of weapons. It has 
been more handguns and shotguns and personal use type of 
weapons. But we do have ongoing operations on a regularly 
occurring basis and a post and surge mode down on the southwest 
border.
    Senator Specter. What could be done, Commissioner 
Winkowski, on stopping the flow of those military weapons?
    Mr. Winkowski. I think there are a number of things that we 
could do. One is to continue doing what we are doing from the 
standpoint of post and surge. I think the other huge piece here 
is, you know, over in ICE from the standpoint of their ongoing 
investigations that they have ongoing in this particular issue.
    The other thing that we are working very hard on, you do 
have legitimate weapons that are going down south that are 
transiting, for example, the United States. They have all the 
proper State Department licenses and things of that nature, and 
we have been working very, very closely with Mr. Torres' staff 
on making sure that those weapons are reaching the right end 
users.
    So I think a combination of post and surge operations, the 
investigative side, and the monitoring of the end users side--
--
    Senator Specter. Those legitimate weapons are not part of 
the problem?
    Mr. Winkowski. Pardon me?
    Senator Specter. Those legitimatized weapons are not part 
of the problem?
    Mr. Winkowski. Well, you know, from our standpoint, those 
weapons that are going down, perhaps transiting the United 
States, do have the proper licenses, and we do believe we have, 
you know, the proper safeguards in place, working with ICE, on 
who the end user is and making sure that it gets to the end 
user.
    Senator Specter. One final question. You see news reports 
from time to time about immigrants being smuggled into the 
United States in these large vans, so-called 16-wheelers. Have 
the precautions taken and improvements made so far been any 
help in monitoring that horrendous practices?
    Mr. Winkowski. Yes, at the ports of entry, with the 
technology that we have received from the Congress this fiscal 
year, the stimulus package, for example, $100 million in new 
money for technology, as well as in our fiscal year 2009 
budget, $30 million. That certainly is one step in the right 
direction.
    I know there are issues interior-wise with individuals that 
are in cargo containers that, you know, in some cases there are 
deaths that I know that the Chief and Mr. Torres have been 
dealing with.
    Senator Specter. Well, thank you very much, gentlemen. 
Senator Sessions has requested 30 seconds. You may start with 
30 seconds.
    Senator Sessions. Thank you.
    Mr. Aguilar, I have the number here from, I believe, your 
Department that there have been 323 miles of single-layer 
pedestrian fence, 302 miles of vehicle fence, and that is how 
you get the 626 number, and only 33 miles of the double-layered 
secondary fencing.
    Mr. Aguilar. That is correct.
    Senator Sessions. Does that sound correct?
    Mr. Aguilar. Yes, sir.
    Senator Sessions. Thank you.
    Senator Specter. Senator Sessions, you still have 7 seconds 
left.
    [Laughter.]
    Senator Sessions. You have already indulged me enough, Mr. 
Chairman.
    Senator Specter. You just used your time.
    Thank you very much, gentlemen.
    Senator Specter. We will now proceed to panel two: 
Congressman Hayworth, Sheriff Wiles, Mayor Foster, Professor 
Massey, and Mr. Vale. If you gentlemen would be seated, we are 
going to proceed.
    Our first witness is former Congressman J.D. Hayworth, a 
Member of the U.S. House of Representatives from 1995 to 2007, 
representing the 5th Congressional District of Arizona; author 
of the book, ``Whatever It Takes: Illegal Immigration, Border 
Security, and the War on Terror.'' He now hosts an afternoon 
political radio show in Phoenix and serves as a consultant and 
motivational speaker.
    Thank you for coming back to Washington, Congressman 
Hayworth, and the floor is yours.

     STATEMENT OF HON. J.D. HAYWORTH, FORMER UNITED STATES 
   REPRESENTATIVE, 5TH DISTRICT OF ARIZONA, PHOENIX, ARIZONA

    Mr. Hayworth. Senator Specter, thank you very much for this 
opportunity to testify, and I ask unanimous consent that my 
complete testimony be made a part of the record.
    Senator Specter. Without objection, it will be.
    Mr. Hayworth. Let me begin by highlighting two very popular 
words from the ``Washington Political Lexicon.'' The first is 
``bipartisan.'' The second is ``comprehensive.'' In my opinion, 
the Federal Government's inability to secure our borders and 
enforce our immigration laws has been a bipartisan failure.
    First, the Bush administration and now the Obama 
administration have both expressed the desire for so-called 
comprehensive immigration reform. While the term 
``comprehensive'' suggests complete or all-encompassing reform, 
the American people see it for what it is: amnesty for those 
who have entered our country illegally.
    When members of this body attempted to move such a piece of 
legislation in the summer of 2007, their constituents made it 
clear that they wanted no part of it. The Senate switchboard 
was overloaded, and the ill-advised legislation was abandoned.
    Yet here we are again, almost 2 years later, with this same 
ill-advised policy objective as this Committee's apparent goal. 
Why?
    Here is some genuine straight talk: because some 
Republicans want ``cheap labor'' and some Democrats want 
``cheap votes.''
    Sadly, what has been shortchanged in this deficient 
political calculation is the border security--indeed, the 
national security--that our country so desperately needs.
    It was my honor to serve in the U.S. Congress for 12 years. 
I was here on September 11, 2001. Who would have thought that 
nearly 8 years following that fateful day, we as a Nation would 
still be dithering over something as elemental to our national 
defense as truly securing our borders?
    Certainly we have created new bureaucracies and enacted new 
laws. But if people are not obeying existing law because the 
Government is not adequately enforcing existing law, what makes 
us think that any new laws will make a difference?
    What results is a type of ``public policy schizophrenia,'' 
all because official Washington views this as a political 
problem to be managed, when in reality it is a national 
security problem that must be solved.
    Two policy objectives indicate the gulf between the real 
and the ideal.
    First, the Secure Fence Act of 2006 was signed into law by 
President Bush. It requires the construction of at least 700 
miles of double-layered fencing along our southern border with 
Mexico. But only about 200 miles of such fencing has actually 
been completed because the Department of Homeland Security has 
chosen to count old single-layered fencing and vehicle barriers 
as part of the new fence. Now smugglers are using collapsible 
ramps to drive over those vehicle barriers.
    Moreover, the Obama administration recently introduced the 
notion of a ``virtual fence,'' despite its initial test 
failures in my home State of Arizona. Perhaps the new round of 
testing can take place not in Arizona, but at 1600 Pennsylvania 
Avenue. Do you think the Secret Service would be willing to 
eliminate the ``real fence'' that surround the White House?
    And the irony here is that building a real border fence, 
with real protections, could create real jobs and would be a 
stimulus project that I believe would prove both popular and 
practical.
    Speaking of popularity in the workplace, the Los Angeles 
Times reported last week that the ``Federal Government's E-
Verify program, which seeks to reduce the hiring of illegal 
immigrants, is becoming increasingly popular, with 1,000 new 
businesses signing up each week.''
    Despite this, critics on both the left and right find fault 
with the error rate of 4 percent, which means there is an 
accuracy rate of 96 percent, and Homeland Security Secretary 
Janet Napolitano said e-Verify is ``a cornerstone of workplace 
enforcement across the country.''
    Yet workplace enforcement is the second policy objective 
which prompts contradictory reactions.
    The February 24th sweep of an engine parts manufacturer in 
Bellingham, Washington, resulted in 28 arrests.
    In response, Secretary Napolitano complained that 
Immigration and Customs Enforcement, or ICE, failed to notify 
her of that raid in advance and announced an investigation into 
the communications policies of ICE.
    Those arrested were subsequently released, and Secretary 
Napolitano later refined her response, claiming that employers 
would now be the focus instead of illegal workers.
    But with those actions, Secretary Napolitano in essence 
publicly berated her Department's own agents for enforcing 
immigration law.
    And that brings us back full circle. Americans want our 
immigration laws enforced.
    A man from Phoenix addressed the matter squarely in an e-
mail to me. His observation, and I quote: ``Wouldn't it make 
sense to first legislate and implement comprehensive border 
enforcement as well as comprehensive employee verification 
before we take on comprehensive immigration reform? ''
    Yes, that makes great sense. But, unfortunately, official 
Washington shows few signs of following common sense on this 
issue.
    Mr. Chairman, I have included the full text of Chapter 9 of 
my book ``Whatever It Takes'' in my complete testimony, and, 
again, I would like to thank the Subcommittee for the 
opportunity to testify, and I will be glad to answer any 
questions you may have.
    [The prepared statement of Mr. Hayworth appears as a 
submission for the record.]
    Chairman Schumer [presiding]. Thank you, Congressman 
Hayworth, former Congressman.
    I am going to introduce the next four witnesses and ask 
them each to put their entire statements in the record and 
speak for 5 minutes each consecutively.
    Richard Wiles is the sheriff of El Paso County, Texas. He 
has held that position since 2007. Prior to that he served as 
Chief of Police of the city of El Paso. He is a member of the 
Texas Border Sheriffs Coalition, has 27 years of law 
enforcement experience, and manages over 1,400 employees.
    Do you want to add something, Senator Cornyn, since he is 
your constituent? We have a lot of your constituents here 
today?
    Senator Cornyn. We do. Thank you for that. These are people 
who know a lot about the border, and I am delighted they are 
here to share their expertise.
    I would just say, because I want to hear from them, that 
hopefully the sheriff can talk a little bit about the impact on 
local and State law enforcement officials of the Federal 
Government's failure to live up to its responsibilities, and 
the importance of providing both the financial support to 
border sheriffs and other law enforcement officials to help 
make up the burden. It is basically an unfunded mandate that 
the Federal Government has imposed on State and local officials 
as a result of the Federal Government's failure to deal with 
border security issues.
    But I am delighted to have him and the mayor here with us, 
and Sam Vale, my friend who is very active in the Border Trade 
Alliance and who can talk a lot about not just border security 
but also the importance to our economy of trade across our 
borders.
    Thank you very much.
    Chairman Schumer. Okay. And we have Chad Foster, as Senator 
Cornyn mentioned, mayor of Eagle Pass, the city of Eagle Pass, 
Texas, appointed by Governor Perry to the Texas Department of 
Transportation Border Trade Advisory Committee, chairman of the 
Texas Border Coalition, a member of the Alliance for Security 
and Trade, and co-chair of the Border 2012 Amistad District, 
and is a member of the Middle Rio Grande Regional Review 
Committee.
    Douglas Massey is the rare witness not from Texas. He is 
the Henry G. Bryant Professor of Sociology and Public Affairs 
at Princeton University's Woodrow Wilson School. He specializes 
in the sociology of immigration, has published extensively on 
immigration through the southwest border. He is the author of 
two seminal books on immigration and population migration 
entitled ``Crossing the Border'' and ``Beyond Smoke and 
Mirrors.''
    And Samuel Vale--I do not have a little sheet here. Somehow 
it was left out. But maybe we can have Senator Cornyn make the 
introduction, and I will just ask unanimous consent that Samuel 
Vale's introduction be added to the record.
    Senator Cornyn. Well, I mentioned that Mr. Vale, Mr. 
Chairman, is very active in the Border Trade Alliance as a 
board member. He actually is president of the Rio Grande City 
Starr-Camargo Bridge Company, so he knows a lot about the ports 
of entry and the need for funding for infrastructure, including 
personnel to facilitate trade. And so I think rather than me go 
on, let us just hear from him.
    Chairman Schumer. OK, great. And also President of 
Telemundo 40, President of the Starr-Camargo Bridge Company, 
President of the Border Pacific Railroad Company. So he has a 
lot of experience.
    Gentlemen, each of your statements, like Congressman 
Hayworth's, will be read into the record. Sheriff Wiles, you 
can proceed.

STATEMENT OF RICHARD WILES, SHERIFF, EL PASO COUNTY, TEXAS, EL 
                          PASO, TEXAS

    Mr. Wiles. Thank you, Chairman Schumer and Ranking Member 
Cornyn. Good afternoon.
    First, just to clarify a previous statement made, El Paso 
is a large city, over 700,000 residents. It has been ranked one 
of the--either the second or third safest large city in the 
United States for the past 12 years, long before the new fence 
was built. So I just want to make that clear.
    We certainly look forward to comprehensive immigration 
reform. We believe it is needed. My concern is that we do not 
make a solution that one size fits all. We do not want to lump 
the problems together and address it with just one solution.
    From a law enforcement perspective, I see two issues. 
Illegal immigration and undocumented immigrants is one, and 
there seems to be a misperception in some communities across 
our country that people who illegally enter our country from 
Mexico do so for the purpose of engaging in criminal activity. 
And that could not be further from the truth. Members of the 
U.S. Border Patrol, without hesitation, will admit that the 
vast majority are here for economic reasons. In many respects, 
they enter illegally knowing that there are employers here that 
want and need their labor. It is as if we are waving them in 
with one hand and telling them to stop with the other.
    What should be the law enforcement response to illegal 
immigration in our local communities? I am not pro-illegal 
immigration. As a law enforcement officer, I respect the laws 
of our country and the necessity for them to be followed for an 
orderly and safe society. But immigration and immigration 
enforcement rest solely with the Federal Government and Federal 
agencies. And as you mentioned, Senator Cornyn, I believe the 
Federal Government has failed in that respect. And when the 
Government ignores its duties and obligations, unfortunately 
that burden sometimes does fall on State and local officials.
    In the past, there has been a discussion of local, county, 
and State law enforcement agencies ``assisting'' in the area of 
immigration enforcement. That is not good policy. While Chief 
of Police in El Paso, I was a member of the Major Cities Chiefs 
Association, which is comprised of the largest 64 law 
enforcement agencies in the United States and Canada. I was one 
of nine members of a subcommittee that ultimately made 
recommendations to the full association that were adopted in 
June 2006, and I have attached a copy of that report to my 
testimony for your review.
    The general recommendation is that local law enforcement 
should not be engaged in the enforcement of Federal immigration 
law. Although there are many reasons, I will concentrate on two 
main ones. First, we lack the resources. We can barely keep up 
with what our community expects us to do now. Second, local law 
enforcement depends on the cooperation of the community it 
serves to prevent and solve crimes. In fact, many local 
agencies spend large amounts of time, energy, and money--a lot 
of Federal grant money--developing relationships just for this 
purpose. The enforcement of Federal immigration laws by local 
law enforcement will undermine these efforts and impair 
cooperation and communication between local law enforcement and 
the communities they serve.
    Additionally, last year I attended a conference on local 
law enforcement and immigration enforcement put on by the 
Police Foundation in Washington D.C., which was well attended. 
The vast majority of agency heads at the conference agreed with 
the findings of the Major Cities Chiefs Association. The Police 
Foundation is actually scheduled to release a new report this 
afternoon discussing how local immigration enforcement 
challenges the public safety mission of law enforcement 
agencies. The report is titled ``The Role of Local Police: 
Striking a Balance Between Immigration Enforcement and Civil 
Liberties.''
    Federal agencies have the personnel, the training, 
equipment, and systems in place to handle immigration 
enforcement. If they are deficient in any of these areas, that 
is something for them to overcome, not a reason to put an 
additional burden on local, county, and State agencies which 
are already struggling to keep up with the demands they face.
    Which leads me to the second issue, and that is the unique 
criminal issues faced by law enforcement agencies in our border 
communities. Due to the demand all across our Nation, illegal 
drugs continue to flow north while money and weapons flow 
south. In addition, we must deal with human smuggling and 
border crime, which many times are offenses committed against 
undocumented immigrants, such as robbery, sexual assault, 
kidnapping, and even homicide.
    These acts clearly are within our jurisdiction and 
responsibility and take law enforcement resources away from our 
neighborhoods when we have to respond to them. But we 
understand we have an obligation to protect all persons within 
our borders, and we respond appropriately without regard to 
immigration status. Our purpose is to prevent crime and, when 
we fail to do that, to apprehend criminal offenders. But we 
also understand that when we arrest a drug smuggler, a drug 
seller, a human smuggler, or a rapist, it prevents drugs and 
crime from expanding into other areas of our country. In this 
regard, we are truly at the front lines using local resources 
to address a national problem.
    Our main concern is border and community security. Our 
position on immigration enforcement works, and it shows in the 
fact that we are an extremely safe community. And we want to 
remain one of the largest safe cities in the United States. We 
are growing and expanding, and we want to maintain the safety 
and security necessary for our citizens to be free from crime 
and the fear of crime. I believe that if we became involved in 
Federal immigration enforcement, that trust and respect we have 
with our community would fracture and fail. It would create a 
communication gap that would hamper our ability to continue our 
efforts in crime reduction.
    If the Federal Government needs the help of local law 
enforcement, it would be better concentrated on issues related 
to crime. We are already working with many Federal agencies on 
issues such as drug smuggling, weapons trafficking, gangs, 
vehicle thefts, et cetera. With the proper resources, we stand 
ready to assist our Federal and State partners on issues that 
are important to all of us and most certainly the communities 
we serve and represent. Ultimately, the entire Nation benefits 
when we are successful at stopping the flow of illegal drugs 
and preventing criminals from continuing to victimize our 
citizenry.
    Thank you very much.
    [The prepared statement of Mr. Wiles appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Sheriff.
    Mayor Foster.

    STATEMENT OF HON. CHAD FOSTER, MAYOR, EAGLE PASS, TEXAS

    Mr. Foster. Yes, sir, thank you. Chairman Schumer, Ranking 
Member Cornyn, I am Chad Foster, again, the mayor of the city 
of Eagle Pass, Texas, and also the Chairman of the Texas Border 
Coalition. I am speaking today on behalf of 2.1 million 
citizens, American citizens, along the 17 counties on the Texas 
border, which encompasses 1,250 miles. Ours is a region of 
contrasts, exhibiting differences and similarities of language, 
culture, tradition, and economy.
    The multinational, multicultural nature of our communities 
on both sides of the international boundary gives our region a 
distinct sense of place.
    When the Senate last debated immigration reform, I recall 
the opponents of the bill saying that the borders had to be 
secured before any visas could be reformed or any effort made 
to legalize the status of the undocumented among us. As 
mentioned, these conditions have been met. Improvements and 
additions to our ports of entry, in my opinion, the land ports 
are now our weakest link. We need your help and we would 
appreciate it now.
    We are within sight of operational control of the border 
between the ports of entry, and that puts our ports under 
greater stress. According to the Government Accountability 
Office, we needed 4,000 new officers to secure the ports of 
entry before we placed the new emphasis on southbound checks to 
stop the trafficking of guns and cash. We needed $4 billion in 
infrastructure and technology. We need 1,600 more CBP officers, 
along with 400 canine units. We need the southbound operations 
to be controlled by CBP, which has training in dealing with the 
traveling public, and not Border Patrol, whose training with 
travelers is more confrontational. We need $130 million for 350 
new ICE investigators to work on firearms-trafficking and 
money-laundering investigations and $20 million for improved 
tactical field communications for CBP and ICE. We cannot afford 
to delay the $20 million that CBP needs to modernize its 
database used to identify potential criminals at the ports of 
entry or the $50 million for Operation Stonegarden to reimburse 
State and local law enforcement for their participation in 
border actions.
    The 9/11 terrorists came to the United States through ports 
of entry. Most undocumented immigrants enter the United States 
through ports of entry. Most of the illegal drugs entering our 
country come through ports of entry. No border wall will solve 
these problems. Illegal border crossing arrests at the Texas 
border have been falling for more than 3 years, without a wall, 
a great tribute to the deterrence of our Border Patrol and CBP 
officers. Arrests this year along the southern border are 
likely to be way below the nearly 1.6 million during the peak 
in 2000.
    In their headlong rush to achieve an arbitrary deadline to 
erect an ineffective wall, the Bush administration chose to 
abandon our Nation's laws that commit us to preserving our 
environment, our culture, our history and our religious 
liberties. We cannot afford to go down that path again--a path 
that waives all laws.
    The Chertoff waivers will affect the natural movement of 
animal species, including the larger mammals that are on the 
threatened or endangered species lists, and cause irreparable 
harm to the unique eco- and bio-systems located along the Rio 
Grande River. They provided carte blanche for the destruction 
of cultural and religious artifacts that are irreplaceable to 
our heritage. The avoidance and mitigation of these damages is 
not an inconvenience to the Government. They are essential 
liberties of our national fabric, guaranteed to the people of 
the United States under Articles I and II of the Constitution. 
We demand that Congress require the enforcement of our 
commitment to being a Nation of laws. We support the repeal of 
the unconstitutional waiver authority and urge the repeal of 
the Secure Fence Act in favor of measures that will provide our 
region with real security.
    The Texas Border Coalition wants to finish the job of 
securing the border by enacting immigration reform. We support 
an earned legalization program for the undocumented people who 
are in the U.S. today. We need an effective guest worker 
program to prevent the immigration policy and political 
failures from repeating themselves in another general 
immigration reform. We need more than a bill; we need that 
balance, the ideological and political continuum in Congress 
and the Nation.
    Thank you.
    [The prepared statement of Mr. Foster appears as a 
submission for the record.]
    Chairman Schumer. Thank you, Mayor.
    Dr. Massey. We are going to try to move things along 
because we have a vote at about 11:45.

STATEMENT OF DOUGLAS MASSEY, PROFESSOR OF SOCIOLOGY AND PUBLIC 
      AFFAIRS, PRINCETON UNIVERSITY, PRINCETON, NEW JERSEY

    Mr. Massey. Good morning, Senators. Thank you for the 
opportunity to testify. I am a social scientist who has been 
studying immigration for three decades, and I co-direct a 
research project that has been in the field for more than 25 
years and generates the largest and most reliable source of 
data on the behavior of documented and undocumented migrants to 
the United States.
    During the 1970s the United States declared a War on Crime; 
during the 1980s it declared a War on Drugs; and in the 1990s 
it seemed to have declared a War on Immigrants. In my view, 
these policies had more to do with domestic politics than with 
the underlying realities of crime, drugs, or immigration, with 
negative consequences all around.
    In the case of immigration, the 1986 Immigration Reform and 
Control Act launched what proved to be a two-decade-long 
militarization of the Mexico-U.S. border. From 1980 to 2000, 
the number of Border Patrol agents increased 3.7 times, line 
watch hours rose by a factor of 6.5, the agency's budget 
increased by a factor of 12.
    Paradoxically, this militarization occurred as undocumented 
migration reached its peak and was beginning to move downward. 
It also unfolded as we were drawing closer to Mexico 
economically, by treaty agreeing to lower the barriers to 
cross-border movements of goods, capital, information, 
services, and certain classes of people.
    Between 1980 and 2000, total trade increased 9 times, 
business visitors by 7.4 times, treaty investors 10 times, and 
intracompany transferees 27 times. Somehow we seem to want to 
integrate all factor markets in North America except one, and 
to magically build a border that is impermeable to all flows 
except that of workers. This fundamental contradiction was not 
sustainable.
    Nonetheless, border enforcement accelerated during the 
1990s despite the fact that the rate of undocumented migration 
to the United States had been falling for several years. The 
1990s War on Immigrants was followed by the post-9/11 War on 
Terror, which quickly became conflated with immigration and 
identified with the Mexico-U.S. border, despite the fact that 
none of the hijackers entered from Mexico, that country has no 
Islamic terrorists cells, has no significant Muslim population, 
and by that point was experiencing a declining rate of 
undocumented migration. Border enforcement, nonetheless, rose 
exponentially after September 11th, with the Border Patrol 
budget increasing 95 times its 1980 level and the number of 
line watch hours rising 111 times. After 9/11, deportations 
also began a marked increase, rising from just 11,000 in 1980 
to some 350,000 in 2008, breaking old records last set during 
the era of mass deportations in the 1930s.
    As already noted, this massive increase in enforcement came 
during a time of North American economic integration and 
falling rates of undocumented migration and did not solve 
America's immigration problems. Although the probability of 
taking a first undocumented trip fell after 1990 and the 
likelihood of taking an additional trip fell after 2000, even 
more pronounced was the sharp decline in the rate of return 
migration. Between 1980 and 2005, the likelihood of returning 
to Mexico within 12 months of an undocumented entry fell by 
more than half.
    This shift in behavior occurred because the militarization 
of the border increased the costs of border crossing from $600 
to $2,200, while increasing the risk of death and injury, but 
had no effect on the probability of apprehension itself. Given 
the higher costs and risks of border crossing, fewer migrants 
left; but those who did leave still got across the border 
because the odds of apprehension did not rise. Once inside the 
United States, they hunkered down and stayed longer and in 
larger numbers to avoid experiencing the costs and risks of 
border crossing again. In sum, it was because of a decline in 
return migration and not an increase in entry from Mexico that 
the undocumented population ballooned during the 1990s.
    In the past 3 years, estimates suggest that the 
undocumented population has peaked and is beginning to trend 
downward. This development is no doubt partly because of the 
remarkable acceleration in border enforcement in the wake of 9/
11 and the rise of mass internal deportations; but it also 
reflects the evaporation of labor demand in the United States. 
Nonetheless, rising enforcement and growing joblessness have 
not prompted a significant return of already settled migrants. 
As we have seen, the rates of departure have fallen to record 
low levels. At the same time, a quiet but massive increase in 
the availability of guest worker visas has provided a legal 
alternative to undocumented entry. According to official data, 
the number temporary legal workers entering from Mexico rose 
from 3,300 in 1980 to 361,000 in 2008.
    These data clearly indicate that Mexican immigration is not 
out of control. It rises and falls with labor demand, and if 
legitimate avenues for entry are available, migrants enter 
legally. The massive militarization of the border and 
resumption of mass deportations occurred despite the fact that 
rates of undocumented migration were falling, and the perverse 
consequence was that these actions lowered the rate of return 
migration among those already here.
    To solve our serious immigration problems, we need to 
undertake a program of legalization for those already resident 
in the country, and especially for the more than 3 million 
people who entered the country as minors and are guilty of no 
sin except obeying their parents. We also need to provide for 
the legal entry of Mexicans by increasing the number of 
permanent resident visas and guest worker permits to levels 
consistent with the needs of an integrated North American 
economy.
    Unfortunately, the current immigration crisis is very much 
one of our own making, reflecting bad policy choices in the 
past; but, fortunately, this means that with better policy 
choices we have the power to resolve the dilemma moving 
forward.
    Thank you for your time and attention.
    [The prepared statement of Mr. Massey appears as a 
submission for the record.]
    Chairman Schumer. Thank you for speeding your testimony but 
getting it all in.
    Mr. Vale.

 STATEMENT OF SAMUEL F. VALE, PRESIDENT, STARR-CAMARGO BRIDGE 
                COMPANY, RIO GRANDE CITY, TEXAS

    Mr. Vale. Thank you very much, Chairman Schumer and Ranking 
Member Cornyn and other distinguished members of the Committee, 
for the invitation to be here. My name is Sam Vale. In addition 
to owning and operating a private port of entry that the rent 
you pay could support all the others for 1,000 years, it is 
something we feel efficiencies at the ports are of utmost 
importance to our border security. The question that you are 
talking about today is something that we have been talking 
about for 30 years, and we will probably be talking about it 
for another 30 years. It is not new, and there is nothing 
static about the security on the border. It changes. It is 
different on the Canadian border. It is different on the 
Mexican border. It is different from port to port. The typical 
approach in Washington is one size fits all. That is not true. 
We are all different. We have got different traffic 
compositions, different people crossing for different purposes. 
So we feel that it is particularly important that we sit down 
and talk about these things on a port-by-port basis.
    We also find that there is a great failure to understand 
that the daily crosses at our ports of entry are primarily the 
same people. We have a significant portion of our border 
crossers that cross each and every day. And, by the way, we are 
also the people that generate sales taxes and property taxes, 
and we pay taxes to the IRS, and we make money for the 
Government. So the more we can do business, the more the 
Government gets to have money to spend on the things that are 
needed for other people in the Government.
    We do not really need to have another security program 
added to what we have until we go back and examine the 
effectiveness of what is there. However, the need for 
comprehensive immigration reform is an equal priority to 
security because the foundation of security is identifying 
people. How can you leave 20 million people out of a databank 
and think you are going to identify people? You have got to 
know who is there. You have got to know who enters and who 
leaves the country.
    Our partners in Canada and Mexico are the No. 1 people we 
sell goods and services to. Good grief, we want them to be able 
to buy our stuff.
    When you talk about southbound inspections on the southern 
border, CBP has never really had that as a priority. Now, if it 
is about weapons, why don't we have ATF down there in greater 
numbers. You do not need 100. You need 200. You need 100 doing 
nothing but intelligence gathering. By the look of a couple of 
you guys, you probably have read in the history books about 
World War II. What was the greatest source of intelligence? The 
partisans. We need more people. We need more intelligence. Our 
ATF people have the skills today to go out in the very short 
term and gather more intelligence so that the southbound 
inspections are based on real-time information, and then you 
add the computer models and all the toys and all the things 
that they like to put into this. It is really a critically 
important issue.
    We can also tell you that along the border, you want to 
export a gun? It does not have to look like a gun. It can be 
parts, a part going through California, a part going through 
Texas, a part going some other way. You can put them together 
pretty quickly. Just ask any of our Special Forces how they 
take them apart and put them together.
    So it is a complex process, and if they are crossing 
between our ports, bring stuff north, you would think they 
might want to take something south. It is kind of like what we 
do in trucking. You need a back haul. In any event, you get to 
something that you all did that was very good, the $720 million 
for stimulus package. Unfortunately, most of that was spent on 
small ports that do not carry a significant portion of the 
traffic. I am a small-port guy so I cannot say anything bad 
about small ports. But I can tell you this: Secretary 
Napolitano said that she completed the Mariposa port for $200 
million designed before we had a stimulus package. That was 
included in what she paid for.
    What we need is boots on the ground. What we need is a 
surge like we had in Iraq. We need a lot of people there. We 
need Border Patrol. We need officers. We need inspectors. We 
need agents. And if you want to talk about how getting north on 
the border is, ask ICE to design a way to come into the United 
States, and I bet you that half of their stuff gets through. So 
with fences, without fences, it is not a simple matter, and we 
have got to stop talking in Pollyanna ways. They have built a 
good fence in Arizona in the marine military bombing base. 
Current technology. It stopped everybody.
    [The prepared statement of Mr. Vale appears as a submission 
for the record.]
    Chairman Schumer. Well, thank you, Mr. Vale. I want to 
thank all of our witnesses. We are going to try to get through 
the questions before the vote is called.
    First, I am going to ask the same question to all five 
panelists--and I would like yes or no answers, and then we will 
get into detail--that I asked the first panel.
    Do you agree or disagree with the following statement: 
``The measures that we have taken since 2005 to secure the 
border have been successful in significantly lowering the 
number of illegal immigrants seeking to unlawfully cross the 
border, including a 27-percent reduction this year'' ? 
Congressman Hayworth, yes or no.
    Mr. Hayworth. Mr. Chairman----
    Chairman Schumer. Yes or no.
    Mr. Hayworth. Thank you for that kind reception. Somewhat.
    Chairman Schumer. Somewhat. OK, fair enough.
    Mr. Wiles. I agree with him.
    Chairman Schumer. Somewhat.
    Mr. Wiles. Yes. Which is rare.
    Mr. Foster. On the Texas border, I believe the 
apprehensions have fallen since 2005, 56 percent. What is 
watering those numbers down is the other borders, but, no, they 
have fallen.
    Chairman Schumer. But you do agree with the statement.
    Mr. Foster. Absolutely.
    Chairman Schumer. Dr. Massey.
    Mr. Massey. No.
    Chairman Schumer. You do not agree.
    Mr. Massey. No.
    Chairman Schumer. Okay. And Mr. Vale.
    Mr. Vale. No. It is about jobs being available.
    Chairman Schumer. Okay. You do not believe then that the--
--
    Mr. Vale. I do not believe it was caused by our security 
measures. I think that is part of it, but not the controlling 
factor.
    Chairman Schumer. Got it. OK, good.
    The second question I have is--well, I think that answers 
it. Let me first go to Congressman Hayworth. You have testified 
that only 200 miles of border fence have been constructed. We 
heard the previous panel, who were the ones who were doing it, 
who say there is 626. Can you explain that discrepancy?
    Mr. Hayworth. Certainly, Mr. Chairman. In your absence, at 
the end of the testimony, Senator Sessions got the accurate 
figures. What is happening is there is a change and a 
redefinition, and you are no stranger to the legislative 
process. You know the intent of Congress sometimes changes with 
actual implementation.
    In terms of what was going on on the border, what has been 
counted by the Department of Homeland Security is not entire 
double-layered fencing, which was the original intent in the 
Secure Borders Act. We are counting single-layer old-style 
fencing, about 10 feet high. And more problematic, the vehicle 
barriers, again, sir, in your absence, it was explained that 
the vehicle barriers are not foolproof, that pedestrians can 
gain access, and also we have seen reporting and documentation 
that with the use of collapsible ramps----
    Chairman Schumer. But wait a second. You are saying it is 
not the fence you want, but there is 626 miles of a fence at 
least 10-foot high, one barrier. Is that true or false?
    Mr. Hayworth. No. That is not what I am saying. I am 
saying----
    Chairman Schumer. No, but is that true or false?
    Mr. Hayworth. Well, there is not 600 miles of single-layer 
fencing. What I have just said, sir, is that there is a 
combination of single-layer; the double-layered fencing the 
legislation called for; and some vehicle barriers. What I am 
also pointing out, sir, is one of the problem, Mr. Chairman----
    Chairman Schumer. But you said there is only 200 miles of 
fencing. We are getting into the definition of----
    Mr. Hayworth. Only 200 miles of double-layered fencing.
    Chairman Schumer. Okay. Is that what your testimony----
    Mr. Hayworth. Would you like to hear about----
    Chairman Schumer. Is that what your testimony said?
    Mr. Hayworth. What I am clarifying for you in the question 
time--and if you would like me to do it, I appreciate the 
courtesy of getting a chance to answer your question, sir. What 
I am saying to you, Mr. Chairman----
    Chairman Schumer. I am just trying to resolve a discrepancy 
here.
    Mr. Hayworth. Well, what I would say to you, sir, is this: 
Rhetorical discrepancies notwithstanding, the problem I am 
trying to report to you is what has been reported in the media 
in Arizona and nationally of the way that smugglers are 
defeating the barriers. And if they are defeating the barriers 
in terms of the so-called vehicle barriers with ramps, there 
are real problems.
    Chairman Schumer. That was not the question I asked you. I 
understand that you might feel we need more. I am just asking: 
Is there a fence, minimum 10-foot high, for the vast majority 
of the non-Rio Grande border? And the answer is yes. And, you 
know, if we are ever going to come to agreement here, we have 
to agree on the facts.
    Now, you can say, yes, there is, but it is not good enough, 
it is not stopping things, you do not agree with the 27-percent 
reduction, or it is due to something else. Those are all fair 
answers. But to simply put in your testimony that there is only 
200 miles of fence, most people, if they looked----
    Mr. Hayworth. Two hundreds miles----
    Chairman Schumer.--at the fence for the other 450 miles 
would say that is a pretty big fence. You may say it does not 
work for the following reasons, but let us try at least--I am 
trying here to stick to the facts.
    I want to ask you just one other question, Congressman. 
Then I am going to move on. I believe that Americans will 
accept a system, broadly defined, that is pro-legal immigration 
and anti-illegal immigration; in other words, if you could 
guarantee to people or make people feel very good--which, 
admittedly, we did not in the last bill; that is why it failed; 
I agree with Senator Cornyn's analysis--that we would stop the 
flow of future illegal immigrants, they would feel much better 
about a system of legal immigration. Do you agree or disagree 
with that? You can elaborate.
    Mr. Hayworth. Well, thank you, sir, very much. Mr. 
Chairman, I believe that part of the problem has come through 
the process that so-called comprehensive reform means a 
simultaneous border enforcement with an alteration of the 
status of those who have come here illegally. I think it is 
important--and I think we have seen this in terms of a variety 
of policies legislatively--that we work first with what is the 
crucial problem. The crucial problem is first securing the 
border. The second thing is having along with that accurate 
verification of employees and those who are here. And despite 
the diversity of viewpoints here, we have heard that. And then, 
and only then, can the debate about guest workers and the 
immigration reform that some desire move forward.
    So my word of caution and my perspective is secure the 
border first. Comprehensive employee ID.
    Chairman Schumer. Got it. And you would agree that, in your 
words, we have secured it better somewhat.
    Mr. Hayworth. Somewhat, but there is a long way to go, Mr. 
Chairman.
    Chairman Schumer. I understand. That is a value system. I 
mean, you might say we should not do anything on legal 
immigration until there is not a single illegal immigrant who 
crosses the border. It is all a value system, and you are in 
one place, and I respect that and appreciate it.
    Mayor Foster, do you think the border enforcement measures 
have played a role in making El Paso more secure?
    Mr. Foster. Well, again, the sheriff referenced El Paso. El 
Paso, with a population of over 700,000, has been the second or 
third----
    Chairman Schumer. Eagle Pass. I am sorry.
    Mr. Foster. Oh, Eagle Pass? Historically, Eagle Pass has 
been a very safe and tranquil city. We have had two murders in 
the last 10 years. We are basically a very quiet, safe border 
community. I am in Piedras Negras, our sister city, on a daily 
basis. Yes, we are very secure. But this has enhanced--but, 
again, the focus today is on our ports of entry.
    Chairman Schumer. And my last question to Sheriff Wiles. 
You said also that you thought we were somewhat effective in 
curtailing flows across the border. Could you elaborate on 
that?
    Mr. Wiles. Well, it is exactly what has been said by other 
members of the panel. Most of the issues that we deal with from 
a criminal aspect come right across the ports. Not to say that 
the Federal agents do not do the best job they can do, but the 
majority of drugs, criminals, individuals who will come over 
here to criminalize our citizens come right across the ports of 
entry.
    Chairman Schumer. Okay. My time has expired.
    Senator Cornyn.
    Senator Cornyn. Sheriff, let me follow up on that. Do you 
think the best solution to that is more Federal law enforcement 
officials at the ports of entry or better technology or data 
sharing? Or what do you think is the right solution?
    Mr. Wiles. Well, all three of those things, and I think 
there has been some commitment by the present administration to 
do just that. We are seeing additional Federal agents, 
especially in the area of ATF, thank goodness. We only had nine 
agents in El Paso until President Obama's administration 
committed to adding additional agents there, when we knew that 
many weapons--and we understand that not all of Mexico's 
problems with weapons are coming from the United States, but 
certainly there is a problem. There are weapons from the U.S. 
going into Mexico, and we do our best to work with the Federal 
agents to conduct southbound checks, to stop stolen cars, 
money, and weapons from going into Mexico. But we need the 
assistance of the Federal Government who has expertise in 
dealing with these issues at the appropriate levels of the 
Mexican and U.S. Federal Governments. And until we got that 
commitment, we did not have it.
    Senator Cornyn. And you heard me, I think, in my opening 
statement talk about the administration's commitment to 
continue and expand the ICE program of working with local 
sheriffs and police chiefs to screen the prisoner population at 
the local level for criminals who come in the country and 
perpetrate crimes, as you said, largely upon other immigrants. 
In other words, we are not talking about people come in without 
a visa.
    Mr. Wiles. Right.
    Senator Cornyn. We are talking about robbers, rapists, 
murderers. Do you support the expansion of that in the El Paso 
County Jail? And how do you think it is working so far?
    Mr. Wiles. Well, I think as long as it is targeted in that 
direction. We have a rather large county jail--it is two jails. 
It holds about 2,440 prisoners, and there are people coming in 
and out of there all the time, many of them for minor 
offenses--traffic offenses, public intoxication, things of that 
nature. And we do not want our time consumed with those types 
of issues. As long as it concentrated on those type of violent 
offenders that potentially could hurt our community, we 
definitely support that.
    Senator Cornyn. And if there is anything we can agree on, I 
hope we can agree on that. It sounds like just a common-sense 
approach to dealing with not the whole problem but part of the 
problem. And, indeed, as you said, these are the people who 
tend to prey on others in the immigrant community.
    Mr. Wiles. Right.
    Senator Cornyn. This is something we ought to be able to 
agree on.
    Mr. Wiles. Yes, sir. Well, nobody wants criminals here, 
whether they are our citizens or citizens from another country, 
victimizing people.
    Senator Cornyn. I wanted to ask Congressman Hayworth, what 
I confront when I come down to McAllen or El Paso or Eagle Pass 
is my constituents say, ``You know, we do not see the problem 
here in terms of terrorists coming across the border.'' But I 
want to just ask the question because of your experience in 
Congress and the information that you no doubt have had access 
to.
    We know that there are people that traverse Mexico that 
come from other countries because of the weak border Mexico has 
on its own southern border. Indeed, La Frontera recently 
reported that the Mexican authorities in Reynosa apprehended a 
dozen Iranians, among others, who had come up through Central 
America, through Mexico, and attempted to come into the United 
States. And then we know down in South America in the tri-
border region, where there is a significant Lebanese 
population, that there is strong financial support for 
Hezbollah there. Is that part of your concern?
    Mr. Hayworth. Mr. Chairman, Senator Cornyn, absolutely. And 
I would supplement that with a report last fall from the 
sheriff of Cochise County who told me of apprehending a number 
of Chinese illegals coming across. But there are obviously 
national security concerns, and, again, we are hearing diverse 
perspectives here, Senator, but different pieces of the puzzle. 
And while obviously the concentration from some on this panel 
has been ports of entry involving trade--what was the great 
saying from baseball? ``Hit'em where they ain't.'' When you 
have got a border as diverse and as large as ours, when you 
have people intent on crossing that border, there is an obvious 
security threat, and with that knowledge, that border security 
is ultimately national security. That is why what you are 
pointing out and other border sheriffs have pointed out is so 
important and must be preeminent in our policy decisions.
    Senator Cornyn. We seem to have a recurrent theme here in 
terms of Washington's perspective on the border that it is all 
the same; and my experience and observation, and certainly 
talking to several of my constituents in your home towns, is 
that it is not, and that it is quite varied. And, in fact, the 
Federal Government, while looking at the 30,000-foot level, 
said, for example, Mr. Vale, that $720 million was included for 
land port infrastructure, which is a good thing. But your 
testimony is that it is not directed toward the high-volume 
ports of entry. Congress cannot pat itself on the back, in 
other words, and say, ``Way to go. We sent money for 
infrastructure,'' when, in fact, there is such diversity and 
difference of conditions there along the border.
    Would you agree with that? I think you would, but would you 
respond to that?
    Mr. Vale. Yes, sir. Congress did a good job in sending the 
dollars. What the Congress did not do is watch how they spent 
it. And that is the big issue. It was not anything that was 
stimulus related. It is the kind of things that you could have 
done in your annual appropriations totally legitimately.
    Senator Cornyn. Well, I happen to agree with you, and 
things we should have done on an annual appropriations basis, 
because it is hard to see how stimulative that was, but they 
were necessary, and I am glad Congress took that step.
    Well, Mr. Chairman, I appreciate the opportunity, and I 
know we have a vote that is winding down here, so I am going to 
go vote. But thanks to my constituents who are here. Thanks to 
the entire panel for coming and sharing your expertise and 
perspective.
    Chairman Schumer. Thank you, Senator Cornyn. I want to 
thank the panel. I had more questions, too, but we have a vote, 
and rather than keep everybody and detain them, we are going to 
leave the record open for 5 days, and we may submit written 
questions if you all wouldn't mind answering those. And I want 
to thank the panel for being here.
    As I said, we are going to do comprehensive hearings on 
every aspect, every difficult aspect of immigration reform, 
because I believe the American people want a solution. They 
just do not want one perspective. They want a comprehensive 
solution, and you have provided a multiple of perspectives for 
us that we have to take into account. So thank you all for 
being here, and thank you for your testimony.
    The hearing is adjourned.
    [Whereupon, at 11:58 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
